Audit of USAID/South Africa’s Monitoring of
Award That Do Not Require Annual Financial
Audits
Audit Report No. 4-674-04-008-P
August 4, 2004




            PRETORIA, SOUTH AFRICA
August 4, 2004


MEMORANDUM
FOR:           USAID/South Africa Mission Director, Dirk Dijkerman

FROM:          Acting Regional Inspector General/Pretoria, James B. Gaughran /s/

SUBJECT:       Audit of USAID/South Africa’s Monitoring of Awards That Do Not
               Require Annual Financial Audits (Report No. 4-674-04-008-P)

This memorandum is our report on the subject audit for your review and comment. In
finalizing this report, we considered management comments on the draft report and have
included those comments, in their entirety, as Appendix II in this report.

This report has five recommendations. In response to the draft report, USAID/South
Africa concurred with the recommendations and included corrective action plans and
target completion dates for all of the recommendations. Therefore, we consider that
management decisions have been reached on all the recommendations. Please provide
the Bureau for Management, Office of Management Planning and Innovation with
evidence of final actions in order to close the recommendations.

I appreciate the cooperation and courtesy extended to my staff throughout the audit.
(This page intentionally left blank.)




                                        3
           Summary of Results...................................................................................5
Table of
Contents   Background................................................................................................5

           Audit Objective..........................................................................................6

           Audit Findings ...........................................................................................6

                    Did USAID/South Africa effectively monitor recipients
                    expending less than $300,000 of USAID funds during their
                    fiscal year to ensure proper accountability?....................................6

                              Recipient Monitoring Is Needed by Controller’s
                              Office....................................................................................7

                              Award Inventory Needs to Be Accurate and
                              Complete ..............................................................................9

                              Cognizant Technical Officers Need to Document Site
                              Visits ..................................................................................11

           Evaluation of Management Comments....................................................14

           Scope and Methodology ..........................................................................15

           Management Comments ..........................................................................17




                                                                                                                            3
(This page intentionally left blank.)




                                        4
Summary of   The Regional Inspector General/Pretoria conducted this audit to determine
Results      whether USAID/South Africa effectively monitored recipients expending less
             than $300,000 of USAID funds during their fiscal year to ensure proper
             accountability. (See page 6.)

             USAID/South Africa did not effectively monitor recipients expending less than
             $300,000 of USAID funds during their fiscal year to ensure proper accountability.
             Specifically, the Controller’s Office did not (1) monitor its recipients whose
             expenditures of USAID funds are exempt from annual audit requirements, (2)
             assess the level of monitoring necessary for these recipients, and (3) maintain an
             award inventory that was complete and accurate. In addition, many of the
             Mission’s Cognizant Technical Officers have not been documenting their site
             visits. (See pages 6-13.)

             This report contains five recommendations to improve USAID/South Africa’s
             efforts to monitor awards that do not require annual financial audits. (See pages
             9, 11, and 13.)

             In response to the draft report, USAID/South Africa concurred with all five
             recommendations and included corrective action plans and target completion
             dates. Therefore, we consider that management decisions have been reached for
             all five recommendations upon final report issuance (see page 14).

Background   The Automated Directives System (ADS) 591 states that nonprofit organizations
             expending less than $300,000 per their fiscal year under direct USAID cost
             reimbursement awards, and host governments expending less than $300,000 per
             their fiscal year under USAID grants, are exempt from the audit requirements of
             this section. Although an audit is not required, Missions are still responsible for
             monitoring recipients expending less than the threshold amount.1 This is to ensure
             accountability for those funds. To achieve this objective, the ADS strongly
             recommends that Mission’s Controllers use the Recipient Control Environment
             Assessment Checklist to determine the level of monitoring necessary for these
             organizations.

             ADS 591 requires all missions to “maintain an inventory of all contracts, grants,
             and cooperative agreements, including cash transfer and non-project assistance
             grants, awards financed with host country-owned local currency, and activities in
             non-presence countries for use in determining audit requirements.” In other
             words, each mission must keep an inventory of awards, irrespective of their


             1
              As defined in ADS 591, a recipient is an organization receiving financial assistance directly from
             USAID to carry out a program under a grant or cooperative agreement. The term includes public
             and private institutions of higher education, public and private hospitals, and other quasi-public
             and private nonprofit organizations. The term may also apply to profit-making organizations that
             are performing work under a grant or cooperative agreement relationship with USAID.


                                                                                                              5
            Dollar amount. According to ADS 591, this award inventory should contain the
            following:

                   1.   grantee/contractor name;
                   2.   type of organization (e.g., for-profit);
                   3.   award number, amount in U.S. dollars, and start/completion dates;
                   4.   prior audits and period covered;
                   5.   receipt date for required audits;
                   6.   dates for planned audits; and
                   7.   reasons for not including the award in the annual audit plan.

            This audit included awards for USAID/South Africa that did not meet the
            $300,000 audit threshold and were active as of September 30, 2003; the 43
            awards totaled over $19.6 million.


Audit       This audit was conducted at USAID/South Africa as part of the Regional
Objective   Inspector General/Pretoria’s annual audit plan. The audit was conducted to
            answer the following question:

               •   Did USAID/South Africa effectively monitor recipients expending less
                   than $300,000 of USAID funds during their fiscal year to ensure proper
                   accountability?

            Appendix I contains a discussion of the audit's scope and methodology.


 Audit      Did USAID/South Africa effectively monitor recipients expending less than
 Findings   $300,000 of USAID funds during their fiscal year to ensure proper
            accountability?

            USAID/South Africa did not effectively monitor recipients expending less than
            $300,000 of USAID funds during their fiscal year to ensure proper accountability.

            To ensure proper accountability for these funds, the Mission needs to improve its
            monitoring of recipients. For example, the Controller’s Office has not been
            monitoring its recipients whose expenditures of USAID funds are exempt from
            annual audit requirements. In addition, the Controller’s Office has not been
            assessing the risk levels of recipients who require monitoring. The Mission’s
            award inventory was incomplete and inaccurate. Although the Mission’s
            Cognizant Technical Officers (CTO) carry out site visits of recipients, many of
            them have not prepared and maintained documentation of the visits which include




                                                                                            6
their monitoring efforts to account for USAID funds.2 These issues will be
addressed in the following subsections.

Recipient Monitoring Is Needed
by Controller’s Office
The Mission Controller’s Office has not been monitoring its recipients whose
expenditures of USAID funds are exempt from the annual audit requirement in
the Automated Directives System (ADS) Chapter 591. Monitoring through the
use of desk reviews and sites visits is addressed in ADS 591. ADS 591 also
strongly recommends the use of the Recipient Control Environment Assessment
Checklist to determine the level of monitoring required. Controller’s Office
employees, as part of their normal activities, did not perform desk reviews or site
visits. The Controller’s Office does not have a procedure for monitoring these
awards. Furthermore, the Controller’s Office has not assessed the risk levels of
recipients, nor were they aware of the Recipient Control Environment Assessment
Checklist which can assist in this effort. Because the Controller’s Office did not
(1) monitor its awards for those recipients expending less than $300,000 in
USAID funds during their fiscal year, and (2) determine the needed level of
monitoring for recipients in this expenditure category, USAID cannot be assured
that these funds were expended in accordance with the agreement terms and
applicable laws and regulations.

According to ADS 591, Appendix B, “Due to the increase of the audit
requirement threshold to $300,000, Missions now have the sole oversight
responsibility for recipients expending less than the threshold amount. With the
limited amount of resources (personnel and dollars) available for such oversight,
Missions are strongly encouraged to create and maintain a documented and
supported plan for accountability of those funds.” Oversight of USAID awards
includes providing assurance that recipients (1) have a proper system of internal
controls in place, (2) are complying with all applicable agreement terms and laws
and regulations, and (3) are ensuring that expenditures are allocable, reasonable,
allowable and supported. In addition, ADS 591.3.4.2.c. states that the Mission
Controller is responsible for determining; (1) the feasibility of conducting audits
on a case-by-case basis; and (2) the level of audit, if required, necessary to ensure
appropriate accountability for awards. To determine the level of monitoring
needed for nonprofit organizations expending less than $300,000 in USAID funds
per their fiscal year, ADS 591.3.2.1 states “It is strongly recommended that
Missions use the “Recipient Control Environment Assessment Checklist.”3 ADS
591.3.4.2.c, states that the Checklist can assist the Controller. This checklist
assesses risk by considering several factors and their effect on the organization’s
internal controls. When used, the checklist should be completed for each
recipient and updated periodically. The major components of the checklist are

2
 At USAID/South Africa, Cognizant Technical Officers (CTOs) also function as Activity
Managers.
3
 This checklist is found in ADS 591, Appendix A.


                                                                                        7
primarily related to accounting controls. ADS 591, Appendix B also states that
the Recipient Control Environment Assessment Checklist would greatly assist the
Missions in demonstrating that accountability.

The ADS also provides guidelines for using the results of the risk assessment that
include conducting desk reviews and site visits. In the case of desk reviews, the
ADS states:

       Most local recipients receive USAID funds on a reimbursable or periodic
       advance basis. Missions typically perform desk reviews of such requests,
       and, on occasion, verify actual costs for which the recipient is claiming to
       the recipient’s books and records. These reviews provide not only a basis
       for reimbursing the recipient, but also provide valuable information about
       the control environment and risk assessment.

For site visits, ADS 591, Appendix B specifies that visits to local recipients by
qualified Mission financial personnel to complete the checklist are an integral part
of the program. However, it recognizes that site visits by Activity Managers or
other Strategic Objective (SO) team members can also provide valuable
information.

Controller’s Office employees assigned to each of the Mission’s SO teams were
not monitoring recipients who expended less than $300,000 per their fiscal year
by conducting desk reviews or site visits. Controller’s Office employees have not
monitored recipients because their office had no procedures requiring them to do
so. Furthermore, the employees were not aware of the ADS requirement for such
monitoring. According to a Controller’s Office official, an employee has recently
been tasked with developing a policy to ensure that financial reviews of recipients
who expend less than $300,000 in their fiscal year will now be conducted. This
official noted that there is value in monitoring, and the policy should be
completed by the end of fiscal year 2004.

On an ad hoc basis, and not part of its regular monitoring efforts, the Controller’s
Office will become involved with monitoring a specific recipient when a CTO
raises a concern about a recipient, or if a CTO requests their assistance.
According to a Controller’s Office Official, he had spoken with CTOs about the
importance of periodically inviting the Controller’s Office voucher examiners to
take part in site visits (such as when a recipient has submitted a voucher to the
Mission for payment). This would give the voucher examiners the opportunity to
identify potential problems that the CTO might miss. However, CTOs
infrequently call upon the Controller’s Office voucher examiners to provide this
service.

Finally, the Controller’s Office employees are not using the Recipient Control
Environment Assessment Checklist to assess the risk levels of recipients that
require monitoring because they were not aware that this checklist was available.



                                                                                  8
Thus, the Recipient Control Environment Assessment Checklist is not being used
to provide assistance in demonstrating accountability as envisioned in ADS 591,
Appendix B.

Without monitoring by the Controller’s Office, there is no assurance that the
entire $19.6 million of USAID funds received by these recipients is being
expended in accordance with agreement terms and applicable laws and
regulations. As a result, the lack of monitoring of recipients who expend less than
$300,000 during their fiscal year places these USAID funds at risk. In addition,
the Recipient Control Environment Assessment Checklist is not being used, nor is
the Mission using another means to systematically assess the risk level of any of
its recipients.

We believe that using the Recipient Control Environment Assessment Checklist
constitutes a best practice that should be used by the Controller’s Office, unless it
demonstrates it has developed a different and well thought out approach to
determine the level of monitoring necessary for recipients who are not required to
have annual audits. In order to meet ADS requirements, the Controller’s Office
must develop procedures to monitor recipients whose USAID funds are exempt
from annual audit requirements. The use of the Recipient Control Environment
Assessment Checklist can help the Controller’s Office direct its limited resources
to recipients with the highest risk levels, and therefore, most in need of
monitoring. To assist in these efforts, we recommended the following actions.

       Recommendation No. 1: We recommend that USAID/South Africa
       develop procedures that will require its Controller to monitor
       recipients who fall under the audit threshold.

       Recommendation No. 2: We recommend that USAID/South Africa
       develop a procedure requiring the periodic completion and update of
       the Recipient Control Environment Assessment Checklist for all of the
       Mission’s recipients who fall under the audit threshold.

Award Inventory Needs to Be
Accurate and Complete
Both ADS 591 and Mission Order 591.002 require that USAID/South Africa’s
award inventory be accurate and complete. The Mission’s award inventory did
not include commitments less than $50,000. For those commitments included in
the award inventory, a high number of errors were identified through testing.
These problems occurred because the Audit Management Officer (AMO) did not
coordinate with the appropriate CTOs in developing the Mission’s inventory, and
no one at the Mission was periodically reviewing the inventory for accuracy. The
lack of a complete and accurate award inventory may result in awards with
expenditures less than $300,000 not being properly monitored.




                                                                                   9
USAID’s ADS 591.3.4.2 requires missions to “maintain an inventory of all
contracts, grants, and cooperative agreements, including cash transfer and non-
project assistance grants, awards financed with host country-owned local
currency, and activities in nonpresence countries for use in determining audit
requirements.” In this inventory, missions are required to include:

   1.   grantee/contractor name;
   2.   type of organization;
   3.   award number, amount in U.S. dollars, and start/completion dates;
   4.   prior audits and period covered;
   5.   receipt date for required audits;
   6.   dates for planned audits; and
   7.   reasons for not including the award in the annual audit plan.

The ADS stipulates that each mission must also develop an annual audit plan to
ensure complete audit coverage of all direct awards to prime foreign
organizations. The ADS further states that the AMO must coordinate with the
appropriate activity managers in developing the Mission’s inventory and annual
audit plan. Further, USAID/South Africa’s Mission Order 591.002 specifies that
all non-U.S. grantees under the Recipient Audit Program be included in the award
inventory and that CTOs be provided a copy of the award inventory (also referred to
as an audit inventory) on a periodic basis for their review and action.

The audit found that USAID/South Africa’s award inventory was incomplete and
inaccurate. Regarding the issue of incomplete data, a Controller’s Office official
responsible for developing USAID/South Africa’s award inventory as of
September 30, 2003, said that the inventory excluded commitments (funds that
USAID makes available for the recipients to use) of $50,000 or less because it
was obvious that no audit would be required for those awards. The audit found
that this exclusion resulted in 13 recipients with commitments totaling $465,217
not being included in the inventory. The recipients in this category had obligated
amounts that ranged from $9,609 to $74,906. In the case of the $74,906
commitment, a Controller’s Office official said that this was a grant agreement
which had a single task that had already been completed so they did not feel it
was necessary to include it in the inventory.

Regarding the issue of inaccurate data, problems identified with the Mission’s
award inventory included duplicate award numbers, non-current award numbers,
and incorrect award amounts. We obtained the Mission’s award inventory for
September 30, 2003, which included 243 award numbers with a total award
amount of $568 million. A review of the award numbers identified four duplicate
entries. The non-U.S.-based recipients, which numbered 57, were identified
through testing. The inventory data—which contained recipient agreement
number, start and completion dates, and agreement amounts—were verified
against the agreement files. Of the 43 awards tested for accuracy, 24 (56 percent)
had one or more errors. The auditors decided not to perform a 100 percent test of



                                                                                10
the awards because the testing performed was sufficient to conclude that the
inventory was not accurate.

These problems occurred because the AMO did not coordinate with the
appropriate CTOs in developing the Mission’s inventory, and no one at the
Mission was periodically reviewing the inventory for accuracy. This is indicative
of the low priority assigned to this important document. If used properly, the
award inventory can be an effective part of the monitoring process. The lack of a
complete and accurate award inventory may result in awards with expenditures
less than $300,000 not being properly monitored.

An award inventory can be a useful tool to help monitor all awards. However, its
utility is dependent upon it being complete and accurate. In order that
USAID/South Africa develop and maintain an inventory that is meaningful, we
are providing the following recommendations.

       Recommendation No. 3: We recommend that USAID/South Africa
       develop and implement a plan of action to comply with Automated
       Directives System Chapter 591 so that all awards, irrespective of size,
       be included in the Mission’s award inventory. The Mission must
       develop a plan of action that requires the Audit Management Officer
       to develop and maintain the inventory in coordination with the
       Mission’s Cognizant Technical Officers.

       Recommendation No. 4: We recommend that USAID/South Africa
       develop and implement a plan of action to correct errors in the award
       inventory, before preparing their annual audit plan and monitoring
       program, to ensure proper accountability for all mission awards.

Cognizant Technical Officers Need
To Document Site Visits
USAID/South Africa’s CTOs need to document their site visits of the Mission’s
recipients. As required by ADS 303 and the CTO Checklist, CTOs are
responsible for documenting their significant actions with recipients and for
evaluating the recipients’ performance. Nevertheless, many of the Mission’s
CTOs have not been documenting their site visits to show their monitoring efforts
in accounting for proper expenditure of USAID funds. CTOs were not, for the
most part, aware of this requirement, nor did their managers require the
documentation. As a result, there is the possibility that the Mission’s CTOs have
not been adequately monitoring their recipients during their visits.

According to USAID’s ADS 303.3.4.c.1, CTO’s are responsible for monitoring
and evaluating a recipient and its performance during the award to facilitate the
attainment of program objectives. Required CTO actions include maintaining
contact through site visits and liaison with the recipient, and reviewing and



                                                                              11
analyzing performance and financial reports. These CTO responsibilities are
further defined in the CTO Checklist found in USAID’s Guide Book for
Managers and Cognizant Technical Officers on Acquisition and Assistance
(November 1998). Among the CTO responsibilities are:

         maintaining reasonable contact with the contractor to become aware of
          and gain an understanding of its problems and work schedules;

         documenting significant actions, conversations, etc., as they occur;

         establishing and maintaining a separate file for documents and
          correspondence pertaining to the contract; and

         monitoring funds closely on a regular basis.

According to ADS 202.3.4.6, Strategic Objectives (SO) teams “must ensure that
they have adequate official documentation on agreements used to implement
USAID-funded activities, resources expended, issues identified, and corrective
actions taken.” (At USAID/South Africa CTO’s are assigned to specific SO
teams.)

As part of their monitoring efforts, the Mission’s CTOs stay in regular contact
with recipients through phone calls, emails, and site visits. However, a review of
the Mission’s CTOs’ files found deficiencies. These files included pertinent
documents related to the award and recipient activities for recipients that
expended less than $300,000 during their fiscal year. Many of the Mission’s
CTOs were neither documenting nor maintaining files on the results of their site
visits with recipients, including their monitoring of funds.

There were two reasons why CTOs were not preparing and maintaining
documents related to their site visits: (1) the CTOs’ were not aware of this
responsibility, and (2) strategic objective team leaders did not require site visit
documentation.

Because most site visits with the Mission’s recipients have not been documented
and maintained in files, it is difficult for the Mission to account for its monitoring
of USAID funds and site visit results. Although some documentation was kept, it
was generally incomplete. Without such documentation, it is difficult to evaluate
the recipient’s performance during the award period. As a result, there exists the
possibility that those USAID/South Africa recipients who expended less than
$300,000 during their fiscal year may not have been adequately monitored by the
CTOs.

The preparation of documentation and maintenance of site visit records are an
important internal control for ensuring that all of the Mission’s recipients are
adequately monitored and that USAID funds are being accounted for. A practice



                                                                                   12
of CTOs conducting site visits with recipients without documenting any of their
monitoring activities from these visits is of limited value and does not meet the
intent of the ADS. Rather, having documentation of site visits that are included in
the CTO’s files helps provide documentation that provides a basis for evaluating
the effectiveness of a recipient’s program. Having site visit documentation is also
important for historical purposes, especially when another CTO is assigned
responsibility for the recipient’s program. In order to strengthen this management
control and to provide the Mission with the full benefit of the CTO’s site visits,
we are providing the following recommendation.

       Recommendation No. 5: We recommend that USAID/South Africa
       develop Mission-specific procedures requiring that site visits of
       recipients be documented and maintained in Cognizant Technical
       Officer files.




                                                                                13
Evaluation of   In response to our draft report, USAID/South Africa management concurred with
Management      Recommendation Nos. 1 through 5. The Mission also provided corrective action
                plans and target completion dates for all of the recommendations. Therefore, we
Comments
                consider that management decisions have been reached on all recommendations
                upon final report issuance.




                                                                                              14
                                                                                 Appendix I

Scope and     Scope
Methodology
              The Regional Inspector General/Pretoria conducted this audit in accordance with
              generally accepted government auditing standards. The audit was conducted at
              USAID/South Africa in Pretoria, South Africa, from February 18, 2004, through
              May 21, 2004.

              The audit included recipients of USAID/South Africa who expended less than
              $300,000 during their fiscal year for the time period October 1, 2002 through
              September 30, 2003. In planning and performing the audit, we tested and
              assessed internal controls for USAID/South Africa related to monitoring non-
              U.S.-based recipients expending less than $300,000 in USAID funds in their fiscal
              year. Specifically, we examined and assessed the following significant internal
              controls: (1) developing an award inventory and audit plan; (2) developing and
              implementing a monitoring plan for recipients expending less than $300,000; (3)
              conducting site visits to ensure funds were being spent in accordance with
              agreement terms and applicable laws and regulations; and (4) establishing and
              maintaining site visit documentation files. In addition, we interviewed the Audit
              Management Officer (AMO), the delegates fulfilling the AMO duties, Project
              Accountants to determine the process and internal controls used, and Cognizant
              Technical Officers. We obtained a copy of the Mission’s award inventory as of
              September 30, 2003, which included 243 award numbers with a total award
              amount of $568 million. The non-U.S.-based recipients, which numbered 57,
              were identified through testing. The audit tested the accuracy and completeness
              of the award inventory prepared by USAID/South Africa

              The types of evidence examined during the audit included—but were not limited
              to—the award inventory prepared by the Controller’s Office and recipient files
              maintained by the Cognizant Technical Officers which included various
              documents related to their monitoring efforts.

              Methodology

              In order to gain an understanding of USAID/South Africa’s monitoring process, we
              held discussions with officials from the Mission and reviewed relevant project
              documentation.

              To accomplish the audit objective, we developed an audit program and performed
              the following tasks:

              •   Reviewed applicable regulations, USAID policy, and guidance related to the
                  audit objective.




                                                                                            15
•   Gained an understanding of USAID/South Africa’s monitoring of recipient’s
    expending less than $300,000 by reviewing and analyzing applicable
    documentation such as, but not limited to, the award inventory, annual audit
    plan and site visit files.

•   Tested data on the award inventory to determine its accuracy. Specifically, we
    verified the agreement number, start and completion dates and the amount of
    the agreement.

•   Compared the award inventory to the list of recipients with active awards
    received from the Mission’s Regional Contracting Officer and to a list of active
    Project Implementation Letters for the Education strategic objective.

•   Interviewed the Controller, employees from the Controller’s Office, the
    employee who developed the award inventory and employees with monitoring
    responsibilities. Also, we reviewed documents they prepared that were
    pertinent to the audit.

 • Interviewed Cognizant Technical Officers from five of the Mission’s
   Strategic Objective (SO) teams and reviewed recipient files to determine the
   extent of their monitoring. (One SO was excluded from interviews as all its
   recipients were U.S.-based.)

We did not set a materiality threshold for this audit as the nature of the audit did
not lend itself to the establishment of such a threshold. However, we designed
our audit to address potential concerns such as:

•   inadequate monitoring of awards with expenditures under $300,000.
•   inaccurate and incomplete audit inventory.
•   lack of knowledge or understanding of the ADS requirements.
•   absence of documentation in CTO files to determine monitoring efforts.




                                                                                 16
                                                                                                Appendix II


Management
Comments                                                       UNITED STATES GOVERNMENT
                                                                  ACTION M E M O R A N D U M




             DATE              :        July 28, 2004

             TO                :        James B. Gaughran: Acting RIG/Pretoria

             FROM              :        Schaeffer Brent: Acting Mission Director /s/
                                        Cleared: Acting Controller: Brian Conklin /s/

             SUBJECT           :        Audit of USAID/South Africa’s Monitoring of Awards that do
                                        not require annual financial audits – Report No. 4-674-04-008-P


                  USAID/South Africa’s Mission management appreciates RIG/Pretoria’s efforts in
                  identifying issues that will help the Mission to best manage its program.

                  Management comments on above referenced audit report are as follows:

                          Recommendation No. 1: We recommend that USAID/South Africa develop
                          procedures that will require its Controller to proactively monitor recipients
                          who fall under the audit threshold.

                  USAID/South Africa management concurs with the recommendation. Mission’s
                  Controller’s Office is in the process of preparing a financial/desk review plan identifying
                  all those recipients expending less than $300,000 of USAID funds during their fiscal
                  year. Procedures to proactively monitor recipients who fall in this category will be
                  incorporated in the Audit Management and Resolution Program Mission Order which is
                  being reviewed and amended. This process will be completed by September 15, 2004.

                          Recommendation No. 2: We recommend that USAID/South Africa develop a
                          policy requiring the periodic completion and update of the Recipient Control
                          Environment Assessment Checklist for all of the Mission’s recipients who fall
                          under the audit threshold.

                  USAID/South Africa management concurs with the recommendation. A policy requiring
                  the periodic completion and update of the Recipient Control Environment Assessment
                  Checklist for all of the Mission’s recipients who fall under the audit threshold will be
                  incorporated in the Audit Management and Resolution Program Mission Order which is
                  being reviewed and amended. This process will be completed by September 15, 2004.




                                                                                                                17
        Recommendation No. 3: We recommend that USAID/South Africa develop a
        plan of action to comply with the Automated Directives System Chapter 591
        so that all awards, irrespective of size, be included in the Mission’s Award
        Inventory. The Mission must develop a plan of action that requires the
        Audit Management Officer to develop and maintain the inventory in
        coordination with the Mission’s Cognizant Technical Officers.

USAID/South Africa management has included in its Mission’s Award Inventory all
awards, irrespective of size. A copy of this inventory was sent to the RIG/Pretoria office
for their record. The Mission’s Award Inventory was developed and is maintained in
coordination with the Mission’s Cognizant Technical Officers and their team leaders. A
draft was sent out to all team leaders and CTOs for review and comment. A final version of
the inventory was later circulated for team leader’s approval.
Based on above, USAID/South Africa considers this issue as resolved.

        Recommendation No. 4: We recommend that USAID/South Africa develop
        and implement a plan of action to correct errors in the award inventory,
        before preparing their annual audit plan and monitoring program, to ensure
        proper accountability for all mission awards.

USAID/South Africa has reviewed the audit inventory. Identified errors have been
corrected. A draft award inventory was circulated to the OAA office, all SO team leaders
and their CTOs, and financial analysts for review. The final inventory was circulated for
team leader clearance and then submitted to RIG/Pretoria. This same process is being
instituted on a recurring annual basis. USAID/South Africa requests that this issue be
considered corrected and resolved.

        Recommendation No. 5: We recommend that USAID/South Africa develop
        Mission-specific procedures requiring that site visits of recipients be
        documented and maintained in Cognizant Technical Officers files.

USAID/South Africa has developed the mission-specific procedures requiring that site
visits be documented and maintained in Cognizant Technical officer’s files. These
procedures are documented in Mission Order No. 402 dated November 05, 1997 – see
copy attached. Section II states:
    (a) the Mission Order serves to ensure that substantive information relating to field
         trips, important meetings, and significant issues and decisions is recorded and
         shared appropriately;
    (b) document site visits and other significant events to provide a useable record and
         evidence for implementation purposes.

Section III of the Mission Order lays down procedures.

USAID/South Africa will redistribute the Mission Order. The AMO will communicate
the contents of the Mission Order during senior staff meetings. Team leaders will be




                                                                                            18
requested to implement procedures cited in the Mission Order No. 402 in their SOs. This
process will be completed by September 15, 2004.

The above constitutes USAID/South Africa management’s comments on the draft
audit report no. 4-674-674-04-008-P.




Drafted by Tiny A. Paile /s/




                                                                                          19
